No.
IN THE
Supreme Court of the United States
GALE ZAMORE,
Petitioner,
V.
DEUTSCHE BANK NATIONAL TRUST COMPANY,
individually, and as Trustee for JP Morgan Mortgage Acquisition Trust
2007-CH5 Asset Backed Pass-Through Certificates Series 2007-CH5,
SELECT PORTFOLIO SERVICING, INC..

Respondent.

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE HONORABLE CLARENCE THOMAS, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE ELEVENTH
CIRCUIT:
Pursuant to Supreme Court Rule 13.5, Petitioner, Gail Zamore, respectfully
requests a 30-day extension of time within which to file a petition for writ of certiorari to
review the decision of the Eleventh Circuit Court of Appeal for the United States, dated
March 25, 2019 in Zamore v. Deutsche Bank Nat’l. Trust Co., etc., 18-13635 (Exhibit A). The
jurisdiction of this Court will be invoked under 28 U.S.C. 1254(1).

1. The petition for writ of certiorari is due in 10 days, on June 24, 2019.
2. Since the Eleventh Circuit affirmed the dismissal of Petitioners Complaint on
March 25, 2019, Petitioner’s lead counsel has had a number of professional obligations that
have prevented him from completing the petition. Those circumstances include: (1) preparing
Florida Supreme Court jurisdictional brief for the appeal of Hanna v PennyMac Holdings
1

LLC, 4D18-1400 which is due on the same day as the petition at bar; (2) preparing a reply
brief in Knezel v. Wilmington Savings Fund Society FSB, etc., 2D18-3222 which is due on
the same day as the petition in the case at bar; (3) preparing to attend oral argument on June
18, 2019 before the Fourth District Court in Prestige Home Buyers. LLC v. The Bank of New
York Mellon, 4D18-3250; (4) preparing a motion for rehearing filed April 25, 2019 in Hanna
v PennyMac Holdings LLC, 4D18-1400; (5) preparing a reply brief filed in Prestige Home
Buyers. LLC v. The Bank of New York Mellon, 4D18-3250 on May 2, 2019; (6) preparing a
reply brief filed May 6, 2019 in Hanna v. Nationstar Mortgage LLC, 4D18-2660; (7)
preparing a reply brief filed June 10, 2019 in Montwill v. Lasalle Bank, N.A, etc, 2D18-2553
which involved a Record of over 6,000 pages.

3. Additionally, over the course of the last few months, lead counsel has had a
heavy caseload to work on which includes attending various trials, conducting various
depositions, and attending daily court hearings.

4. Further still, lead counsel, James R. Ackley, Esq., – who is not yet admitted to
the U.S. Supreme Court Bar – has been working diligently to meet the requirements for
application to the bar and is hoping to be admitted before the Petition is due.

5. Accordingly, Petitioner requires additional time to prepare an appropriate
petition for consideration by this Court and for lead counsel to be admitted to the U.S.
Supreme Court Bar.

6. Respondent has agreed to a thirty (30) day extension.
For the foregoing reasons, Petitioner hereby requests that an extension of time, to
and including Wednesday, July 24, 2019, be granted within which to file a petition for
writ of certiorari.

2

Respectfully submitted,
JACOBS LEGAL, PLLC
ALFRED I. DUPONT BUILDING
169 EAST FLAGLER STREET, SUITE 1620
MIAMI, FLORIDA 33131
TEL (305) 358-7991
FAX (305) 358-7992
SERVICE EMAIL: EFILE@JAKELEGAL.COM
BY: /S/ BRUCE JACOBS
BRUCE JACOBS
FLORIDA BAR NO. 116203

3

